TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Annual Assessment of the Internal Revenue
                  Service Information Technology Program



                                      September 28, 2012

                              Reference Number: 2012-20-120




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


ANNUAL ASSESSMENT OF THE                             and is expected to be placed into production in
INTERNAL REVENUE SERVICE                             late 2012. Modernized e-File Release 7.0 was
INFORMATION TECHNOLOGY                               implemented in January 2012; however, plans to
PROGRAM                                              retire the Legacy e-File system in 2012 were
                                                     revised.
                                                     TIGTA continues to believe that the IRS’s
Highlights                                           Modernization Program remains a major risk.
                                                     Improved controls are needed to ensure
Final Report issued on                               long-term success for two key systems within
September 28, 2012                                   the Modernization Program. The development
                                                     and implementation of new systems for Patient
Highlights of Reference Number: 2012-20-120          Protection and Affordable Care Act provisions
to the Internal Revenue Service Chief                present major IT management challenges.
Technology Officer.                                  TIGTA suggests that the IRS continues to stress
                                                     improvements in its overall control processes
IMPACT ON TAXPAYERS                                  and performance, including implementing
Successful modernization of IRS systems and          successful new systems, necessary to meet the
the development and implementation of new            IRS’s mission-critical goals.
Information Technology (IT) applications is          The IRS has made progress to improve
necessary to meet evolving business needs.           information security and personnel safety;
The IRS must ensure that its computer systems        however, it needs to continue to place emphasis
are effectively secured to protect sensitive         on information and physical security programs in
financial and taxpayer data. The IRS also needs      order to ensure that policies, procedures, and
to ensure that it leverages viable technological     practices adequately address security control
advances as it improves its overall operational      weaknesses. Weaknesses were identified over
environment.                                         system access controls, configuration
                                                     management, audit trails, physical security,
WHY TIGTA DID THE AUDIT
                                                     remediation of security weaknesses, and
This audit was initiated as part of the TIGTA’s      oversight and coordination on security-related
Fiscal Year 2012 Annual Audit Plan and               issues. Until the IRS addresses security
addresses the major management challenge of          weaknesses, it will continue to put the
Modernization. TIGTA is required by the IRS          confidentiality, integrity, and availability of
Restructuring and Reform Act of 1998 to              financial and taxpayer information and employee
annually perform an evaluation of the adequacy       safety at risk.
and security of IRS technology.
                                                     The IRS IT organization envisions becoming a
WHAT TIGTA FOUND                                     world-class provider of IT services by focusing
                                                     on its people, processes, and technology. It
Since last year’s assessment, the IRS has            implemented virtualization technology to
developed and implemented significant systems,       continue to improve operational efficiency, but
including the daily processing and database          additional improvements are needed. In
implementation projects of the Customer              addition, the IT organization is effectively
Account Data Engine 2 system and a new               working human capital issues, but improvements
release of the Modernized e-File system. The         are needed there also.
daily processing project provides individual
taxpayer account information to select               WHAT TIGTA RECOMMENDED
downstream IRS systems on a daily basis and
                                                     Because this was an assessment report of the
was implemented in January 2012. The
                                                     IRS’s IT Program through Fiscal Year 2012,
database implementation project will establish a
                                                     TIGTA did not offer any recommendations. IRS
relational database that will store all individual
                                                     officials were provided with an opportunity to
taxpayer account data. It is in the testing phase
                                                     review and comment on the report.
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 28, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Internal Revenue
                               Service Information Technology Program (Audit # 201220010)

 This report presents the results of our annual assessment of the Internal Revenue Service (IRS)
 Information Technology Program. The overall objective of this review was to perform an
 evaluation of the adequacy and security of the technology of the IRS since August 1, 2011, as
 required by the IRS Restructuring and Reform Act of 1998.1 This audit is included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2012 Annual Audit Plan and
 addresses the major management challenge of Modernization.
 Copies of this report are also being sent to the IRS managers affected by the report findings.
 Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                Annual Assessment of the Internal Revenue Service
                                         Information Technology Program




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Systems Modernization and Applications Development Background ......... Page 6
          Improved Controls Are Needed to Ensure Long-Term Success for
          Two Key Systems Within the Modernization Program ................................ Page 8
          Achieving Program Efficiencies and Cost Savings ...................................... Page 12
          Development and Implementation of New Systems for the Patient
          Protection and Affordable Care Act Provisions Present Major
          Information Technology Management Challenges ....................................... Page 13
          Information Security Background................................................................. Page 15
          Progress Is Being Made to Improve Information Security and
          Personnel Safety............................................................................................ Page 16
          Continued Management Attention Is Needed to Address Weaknesses
          in Information and Physical Security ............................................................ Page 18
          Information Technology Operations Background ........................................ Page 24
          Information Technology Operational Efficiency Continues to
          Improve, but Additional Improvements Are Needed ................................... Page 24
          The Information Technology Organization Is Effectively Working
          Human Capital Issues, but Additional Improvements Are Needed .............. Page 25

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 29
          Appendix II – Major Contributors to This Report ........................................ Page 30
          Appendix III – Report Distribution List ....................................................... Page 31
          Appendix IV – List of Treasury Inspector General for Tax
          Administration Reports Reviewed ................................................................ Page 32
                     Annual Assessment of the Internal Revenue Service
                              Information Technology Program



Appendix V – Number of Internal Revenue Service Information
Technology Employees ................................................................................ Page 35
Appendix VI – Glossary of Terms ................................................................ Page 36
         Annual Assessment of the Internal Revenue Service
                  Information Technology Program




                    Abbreviations

ACA          Patient Protection and Affordable Care Act
ACIO         Associate Chief Information Officer
CADE 2       Customer Account Data Engine 2
CTO          Chief Technology Officer
e-File       Electronic Filing
EUES         End User Equipment and Services
FY           Fiscal Year
GAO          Government Accountability Office
IRDM         Information Reporting and Document Matching
IRS          Internal Revenue Service
IT           Information Technology
MeF          Modernized e-File
TIGTA        Treasury Inspector General for Tax Administration
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to evaluate the adequacy and
security of the IRS’s Information Technology (IT) Program annually. This report provides our
assessment of the IRS’s IT Program and its operations for Fiscal Year (FY)2 2012.
Each year, the IRS collects more than $2 trillion in tax revenue and manages about 220 million
individual taxpayer accounts and more than 40 million business taxpayer accounts.3 The IRS
receives as many as 20 million inquiries from taxpayers during the peak week of the filing season.
Further, the Federal tax code includes more than 44,000 pages and is updated based on more
than 200 tax law changes enacted each year. According to the Draft IRS IT Business Plan
FYs 2011–2013, the primary business challenges that the IRS faces include:
        Increasing complexity of tax administration due to the breadth of existing tax laws and
         annual tax code changes from new legislation.
        Growing human capital challenges due to an aging staff and 39 percent of its executives
         nearing retirement.
        Keeping up with the explosion in electronic data with online interactions and related
         security risks as technologically perceptive taxpayers and employees are increasingly
         using online tools.
        Accelerating globalization from increasing taxpayer and corporate foreign income
         requires experience and tools in international tax administration.
        Expanding role of tax practitioners and other third parties in the tax system as
         individuals increasingly use outside help, such as tax preparers and software.
        Maintaining the technology of the legacy systems used to perform core IRS processes,
         which will require effort and skill.
        Complying with the mandate to ensure the security and privacy of taxpayer personal and
         financial information, IRS infrastructure, and IRS applications.
        Improving operational efficiency amid increasing budget constraints by optimizing
         existing technology and prudently planning future technology.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VI for a glossary of terms.
3
  IRS IT Draft Business Plan FYs 2011–2013.
                                                                                                              Page 1
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



The IRS reported that the 2012 Filing Season was a key turning point in modernizing the IRS
technology infrastructure and instituting processes to deliver outstanding tax administration
services to the American public.4 To align with these milestones, effective July 1, 2012, the
Modernization and Information Technology Services organization changed its name to the IRS
Information Technology organization. The IRS reports that the name change reflects a shift in
the organization’s way of thinking and operating as it collaborates with the business and
functional operating divisions to deliver the IRS’s mission. Instead of modernization being
treated as a separate and distinct strategic offering within the IRS IT organization, it will now be
incorporated into the overall portfolio.
The IRS Chief Technology Officer (CTO) is responsible for advising the Commissioner on all IT
matters, managing the IRS’s information system resources, and delivering and maintaining
modernized information systems throughout the IRS. The following Associate Chief
Information Officer (ACIO) offices support the CTO:
       Applications Development is responsible for building, testing, delivering, and
        maintaining integrated software solutions to support modernized systems that manage
        taxpayers’ accounts, interactions with taxpayers, and potential audit and collection
        activities.
       Enterprise Services is responsible for strengthening the technology infrastructure
        across the enterprise and for defining how the enterprise-wide data environment is
        organized, identified, shared, and reused.
       Strategy and Planning is collaborating with IT leadership and external stakeholders
        to provide policy, direction, and administration of essential programs. Strategy and
        Planning ensures selection, planning, and management of an IT investment portfolio.
       End-User Equipment and Services (EUES)5 provides IT products and support
        services to IRS end-users. It is the single point of accountability for personal
        computing, help desk support, asset management, local area networks, and telephone
        communications support.
       Enterprise Networks manages the design and engineering of the IRS’s
        telecommunications environment and is responsible for developing the long-range
        enterprise network strategy and managing telecommunications projects.
       Enterprise Operations supports the mainframe and server environment for all IRS
        business entities and taxpayers. Enterprise Operations is developing the new
        enterprise-wide development and test environment and is establishing
        maximum security management.
4
 IRS Name Change Guidance dated June 28, 2012.
5
 On April 22, 2012, the EUES organization merged with the Enterprise Networks organization to form the User and
Network Services organization.
                                                                                                       Page 2
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



       Cybersecurity ensures the IRS’s compliance with Federal statutory, legislative, and
        regulatory requirements governing measures to assure the confidentiality, integrity,
        and availability of IRS electronic systems, services, and data.
       Affordable Care Act Program Management Office is responsible for managing the
        strategic planning, development, and implementation of new information systems
        supporting IRS business requirements under provisions of the Patient Protection and
        Affordable Care Act (ACA).6
       Management Services works with information technology leadership to define and
        implement human capital policies and guidance.
       The Modernization Program Management Office leads the Customer Account Data
        Engine 2 (CADE 2) system development efforts.
The IRS IT organization’s FY 2012 budget was more than $2.1 billion, of which
$330.21 million was for Business Systems Modernization. The IRS appropriations language
in H.R. 2055,7 dated January 5, 2011, specifies that the IRS Business Systems
Modernization program include the CADE 2 and Modernized e-File (MeF) systems’
investments. Figure 1 provides a breakdown of the FY 2012 budget supporting the IRS IT
organization by specific funds.




6
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
7
  Consolidated Appropriations Act, 2012, H.R 2055-103, 112th Cong. (2012).
                                                                                                           Page 3
                              Annual Assessment of the Internal Revenue Service
                                       Information Technology Program



                                 Figure 1: IRS Information Technology
                                        FY 2012 Budget by Fund

                                                                   Operations
                                                                 Support ACIOs                    FY 2012
              IRS Information Technology                         FY 2012 Budget                   Budget
    Applications Development                                    $458,812,276 
    Enterprise Services                                         $63,041,742 

    Strategy and Planning                                       $42,439,223 
    User and Network Services                                   $429,600,475 

    Enterprise Operations                                       $351,076,320 

    Cybersecurity                                               $129,221,937 
    Other Associate Chief Information Officers (ACIO)           $334,034,859 

        Total Operations Support Fund                                                     $1,808,226,832 

        Affordable Care Act Fund                                                          $33,838,291 

        Business Systems Modernization Fund                                               $330,210,000 

        Return Preparer Initiative Fund                                                   $681,527 

        User Fees Fund                                                                    $220,000 

        Reimbursable Fund                                                                 $4,469,311 

    Total IRS Information Technology FY 2012 Budget                                       $2,177,645,961 
Source: IRS IT, Strategy and Planning ACIO, Financial Management Services, February 2012.

As of June 30, 2012, the IRS IT organization employed 7,228 individuals. Appendix V
provides a breakdown of the number of IRS IT employees by their respective functions. As of
May 30, 2012, the IRS IT organization also employed almost 2,000 contractors.
The compilation of information for this report was conducted at the TIGTA office in
Atlanta, Georgia, during the period June through August 2012. We considered TIGTA reports
issued to the IRS between August 1, 2011, and September 30, 2012,8 as well as reviewed
relevant reports published by the Government Accountability Office (GAO), IRS Oversight
Board, National Taxpayer Advocate, and the IRS. In addition, we considered congressional
testimonies.


8
    Please see Appendix IV for a list of TIGTA audit reports used in this assessment.
                                                                                                            Page 4
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



Our audit work was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 5
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program




                                        Results of Review

Systems Modernization and Applications Development Background
The Business Systems Modernization Program (Modernization Program) is a complex effort to
modernize IRS technology and related business processes. It involves integrating thousands of
hardware and software components while replacing outdated technology and maintaining the
current tax system. Successful modernization of IRS systems and the development and
implementation of new IT applications is necessary to meet evolving business needs. The IRS
budget for FY 2012 includes $330.21 million to remain available until September 30, 2014, for
“necessary expenses of the Internal Revenue Service’s business systems modernization
program.” Such expenses include the capital asset acquisition of information technology
systems, including management and related contractual costs of said acquisitions (and related
IRS labor costs) and contractual costs associated with authorized operations.
Factors that characterize the IRS’s complex information technology environment include widely
varying inputs from taxpayers (from simple concise records to complex voluminous documents),
seasonal processing with extreme variations in processing loads, transaction rates on the order of
billions per year, and data storage measured in trillions of bytes. Goals for the Modernization
Program include the following:
          Issuing refunds, on average, five days faster than existing legacy systems.
          Offering electronic filing (e-file) capability for individuals, large corporations, small
           businesses, tax-exempt organizations, and partnerships with dramatically reduced
           processing error rates.
          Delivering web-based services for tax practitioners, taxpayers, and IRS employees.
          Providing IRS customer service representatives with faster and improved access to
           taxpayer account data with real-time data entry, validation, and updates of taxpayer
           addresses.
Last year was the first year since 1995 that the IRS did not identify and report the Modernization
Program as a material weakness under the Federal Financial Management Improvement Act.9 In
June 2011, the IRS Commissioner certified, in a memorandum to the Department of the
Treasury’s Assistant Secretary for Management and Chief Financial Officer, that the internal and
management control weaknesses contributing to the material weakness had been fully addressed.
Based on achievements at that time, the IRS concluded that issues raised related to the early

9
    Pub. L. No. 97-255 – (H.R. 1526).
                                                                                                  Page 6
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



modernization programs and the management processes and controls in place for the
Modernization Program were no longer a material weakness for the IRS. While we supported
the IRS’s decision last year based on the accomplishments and preliminary results at the time,
based on our current assessment of the IRS’s IT Program, we believe the Modernization Program
remains a major risk. Further, we suggest that the IRS continue to stress improvements in its
overall control processes and performance, including developing and implementing successful
new systems and applications that are necessary to meet IRS’s mission-critical goals and
capabilities.
In June 2012, the GAO reported10 that the IRS’s challenge in addressing its material weakness in
internal controls over unpaid assessments resulted from three specific control deficiencies:
(1) inability to rely on its general ledger and underlying subsidiary records to report in
accordance with Federal accounting standards without significant compensating procedures;
(2) inability to trace reported taxes receivable to supporting transactions and maintain an
effective transaction-based subledger for unpaid assessment transactions; and (3) inability to
effectively prevent or timely detect and correct errors in taxpayer accounts. In its report, the
GAO concluded that these conditions were caused “primarily by IRS’s continued reliance on
software applications that were not designed to provide accurate, complete, and timely
transaction-level financial information, as well as errors in taxpayer accounts.” Further, the
GAO stated, “These problems are likely to continue to exist until these software applications are
either significantly enhanced or replaced, and IRS remedies the control deficiencies that continue
to result in significant errors in taxpayer accounts.”
The IRS Oversight Board recently stressed the importance of the IRS Modernization Program
and emphasized the continuing need for a modern IT system as the foundation for major
increases in IRS efficiency and reduced taxpayer burden through Electronic Tax
Administration.11 The Oversight Board’s vision for Electronic Tax Administration is a tax
administration system that provides secure, convenient, timely, and accurate services to
taxpayers and to the tax professionals and IRS employees who serve them. The Oversight Board
has approved two long-term goals that it uses to measure the IRS’s progress in modernizing
itself: (1) the rate at which taxpayers electronically file their tax returns and (2) the successful
and timely delivery of the CADE 2 and MeF systems.
The IRS’s National Taxpayer Advocate reported to Congress that:
        CADE 2 is expected to resolve many computational problems. Beginning January 2012,
        the IRS will roll out an extensive system modernization known as CADE 2, that will
        permit the Individual Master File to accept and post taxpayer account updates every
        business day. Instead of waiting two weeks for payments to post, it will only take from

10
   GAO, GAO-12-695, Status of GAO Financial Audit and Related Financial Management Recommendations,
pp. 7–8 (June 2012).
11
   IRS Oversight Board Annual Report to Congress 2011, p. 37 (May 2012).

                                                                                                 Page 7
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



           48 hours to a week. Ultimately, CADE 2 will replace the more than 50-year-old system
           the IRS now uses to process tax return data. The new database and its related
           applications will, over time, replace the IMF [Individual Master File] and the BMF
           [Business Master File] as the IRS system of record for taxpayer accounts and will speed
           the transition from the multiple systems that now manage taxpayer accounts to one
           comprehensive system. The IRS anticipates that the January 2012 release of CADE 2
           and the availability of real-time data will eliminate some account [sic] restricting for
           interest and certain interest accruals and will increase timeliness of taxpayer account
           data. For this reason, it is important that CADE 2 continue to develop, roll out, and
           operate as planned.
At that time, the National Taxpayer Advocate also recognized that the IRS had recently
implemented several technology enhancements that can assist taxpayers to obtain information
more easily. This includes a new phone application, IRS2Go, which can be downloaded to a
smartphone for free. Taxpayers can use IRS2Go for a number of things, including checking the
status of their tax refund and subscribing to tax tips.

Improved Controls Are Needed to Ensure Long-Term Success for Two
Key Systems Within the Modernization Program

MeF system
The MeF system is a critical component of the IRS initiative to meet the needs of taxpayers,
reduce taxpayer burden, and broaden the use of electronic interactions. Unresolved performance
issues with MeF Release 7.0 and planned Calendar Year 2012 infrastructure changes for the IRS
have impaired efforts to retire the existing Legacy e-File system and delayed plans for receiving
employment tax forms through MeF Release 8.0.12
Over the last calendar year, the IRS took important steps to increase the volume of returns
transmitted to the MeF system and increased the number of vendors’ software packages available
to transmit electronic tax returns. However, our audit found that unresolved performance issues
with MeF Release 7.0 existed as of its deployment. In addition, the IRS IT organization is
planning significant infrastructure changes in Calendar Year 2012 that will introduce uncertainty
and may affect the MeF system’s reliability. Further, the IRS has not developed a retirement
plan for the existing Legacy e-File system, including measurable shutdown conditions for that
system, even though it was scheduled to be retired in October 2012. Finally, the MeF system has
not yet fully demonstrated the ability to process all electronically filed returns for a filing season,
projected to be more than 121 million combined individual and business returns.
To address these findings, we recommended that the CTO: (1) advise the Wage and Investment
Division to defer the retirement of the Legacy e-File system until the increased risk associated
12
     See Appendix IV, Reference Number 2012-20-121.
                                                                                               Page 8
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



with retiring the system can be addressed; (2) update the Internal Revenue Manual to include
improved performance testing processes, ensure system performance test teams obtain approved
waivers or deferrals when performance tests are not executed, and ensure performance test teams
submit End of Test Status Reports for senior management review; and (3) advise the Wage and
Investment Division to complete a retirement plan for the Legacy e-File system, as well as
communicate retirement milestones and a timeline to key stakeholders.
In their response to the report, IRS officials partially agreed with the recommendations. The IRS
plans to develop a contingency plan for the MeF system and to update the Internal Revenue
Manual as needed. The IRS has also revised its timeline to retire the Legacy e-File system.
However, IRS management did not concur with our recommendation to develop a retirement
plan for the Legacy e-File system that includes associated implementation dates and monitoring
processes.

CADE 2 system
The January 2012 implementation of the CADE 2 system daily processing capabilities, which
provide individual taxpayer account information to downstream IRS systems on a daily basis,
enabled the IRS to process tax returns for individual taxpayers more quickly by replacing
existing weekly processing. This key modernization system will include a centralized database
of individual taxpayer accounts, allowing IRS employees to view tax data online and provide
timely responses to taxpayers. The successful implementation of the CADE 2 system is intended
to significantly improve services to taxpayers and significantly enhance IRS tax administration.
The IRS initiated systems development testing of the CADE 2 system, reduced the risks to the
filing season by implementing independent contractor recommendations, and performed
simulated exercises to identify potential issues that could occur during the filing season.
However, we found that improvements are needed in key controls and processes for
requirements management, process testing, and security testing to ensure the long-term success
of the CADE 2 system.13 TIGTA recommended that the CTO take necessary steps to ensure:
        Test cases and other appropriate documentation are properly developed for infrastructure
         requirements.
        All infrastructure documentation includes complete traceability to the requirements being
         tested and the testing results.
        IRS testers obtain and maintain documentation to verify test results.
        Test execution practices are consistent.
        All system security requirements and corresponding test cases are identified and
         sufficiently traced, managed, and tested.

13
     See Appendix IV, Reference Number 2012-20-122.
                                                                                            Page 9
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



        All database issues identified by vulnerability scanning are resolved or an action plan is
         developed with specific corrective actions and associated time periods for completion.
        All issues identified by source code security review scans are resolved and an action plan
         is developed with specific corrective actions and associated time periods for completion
         prior to the code being placed into service.
In management’s response to the report, the IRS partially disagreed with three of our eight
recommendations. The IRS disagreed with developing an enterprise-wide program-level
Requirements Traceability Verification Matrix and policy. We believe, however, that an
enterprise-wide approach is needed to strengthen oversight of traceability controls. Also, the
IRS stated that automated tools are not always needed for control of requirements and test case
management for IT systems development. We maintain that the use of one suite of integrated
automated tools would provide needed control over volumes of requirements and test cases for
IRS systems, including the monumental CADE 2 systems development initiative. Lastly, the
IRS responded that additional CADE 2 documentation is not needed to ensure complete
traceability of requirements to test results. Specifically, the IRS stated that adequate
documentation already exists with Government Equipment Lists and environmental checklists.
However, as stated in our report, while this documentation does verify infrastructure components
have been acquired and implemented, it does not verify that all CADE 2 processing requirements
have been tested.
Further, it is critical for the IRS to accurately execute, monitor, and assess performance and
capacity testing for the CADE 2 because these controls directly affect whether, after
implementation, the system will be capable of processing the necessary quantity and types of
information within required time periods. This is needed to avoid possible delays with taxpayer
refunds and degraded customer service. As part of the CADE 2 systems development process,
the IRS established a testing environment for the CADE 2 system that was representative of the
existing production environment. This approach allowed the IRS to obtain meaningful data from
its preproduction tests. However, the IRS did not follow procedures to ensure that performance
requirements were completely tested during the Final Integration Test Phase I.14 As a result, the
IRS may not have acquired all the necessary information to make a fully informed decision on
the ability of the CADE 2 system to effectively process transactions under expected normal and
peak workload conditions within acceptable response time thresholds. To address specific
control weaknesses with system performance testing, we recommended that the ACIO,
Applications Development, take steps to ensure internal controls for testing performance and
capacity requirements are formally and effectively implemented to ensure the traceability of
these requirements through the performance testing process.
One of the primary goals of the CADE 2 system is for it to be a trusted source of data for the IRS
and taxpayers. To provide this, the system requires a stable design to support tax processing

14
     See Appendix IV, Reference Number 2012-20-051.
                                                                                             Page 10
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



functions and ensure complete and accurate data. The database implementation project will
establish a relational database that will store all individual taxpayer account data. It is currently
in the testing phase and is expected to be placed into production in late 2012. However, we
determined that data integrity testing completed did not provide assurance that CADE 2 system
data are consistently accurate and complete.15 Also, the CADE 2 system database design has not
fully met initialization, daily update, and downstream interface needs. In June 2012, the IRS
acknowledged that it was having problems with its CADE 2 system database interface to the
Integrated Data Retrieval System Taxpayer Information File. As a result, the IRS is reevaluating
its data strategy for feeding downstream systems and is considering delaying the interface. The
IRS spent about $22.3 million on database implementation, which included developing
Version 2.2 of the CADE 2 database. However, the IRS does not track cost at the development
activity level and, consequently, we could not determine the actual cost for the new version of
the CADE 2 database. Enhanced security is also a primary goal for the CADE 2 system.
However, vulnerabilities in the JAVA code could result in loss of sensitive taxpayer information.
The IRS agreed with three and partially agreed with one of the seven recommendations, and
corrective actions are planned. However, the IRS disagreed with three of our recommendations
to: (1) ensure that the database design process follows the Internal Revenue Manual and validate
that the database design meets business requirements, (2) realign data validation and testing
efforts with business functionality and processes, and (3) disable or remove sample tables and
default ports prior to the CADE 2 Program exiting Transition State 1. The IRS believes that its
current development and testing processes are sufficient to address recommendations 1 and 2.
For recommendation 3, the IRS will consider changing the default port as part of an enterprise
risk mitigation remediation plan, while the IRS management’s response is silent on what actions,
if any, the IRS will take regarding sample tables.
A final matter for careful consideration regarding the CADE 2 system is an announcement16 from
the CADE 2 Governance Board in July 2012. The announcement noted that in January 2012, the
IRS made history, delivering a daily processing capability for individual taxpayers after
50+ years on a weekly cycle. The announcement also highlighted that in March 2012 the IRS
“delivered a new state-of-the-art database, loaded with over 270 million taxpayer accounts and
over a billion tax modules” as an “immediate leap forward for the IRS from a technology
standpoint.” However, the Governance Board also stated “there is much more to be done, and
now more than ever, we need all hands on deck to reach our September delivery for Database
Implementation.” Despite several specific progress areas for the CADE 2 system that are noted
in the Board’s announcement, the IRS openly acknowledged that “the program has also
experienced delays across Database Implementation, and there is a clear risk of further schedule
delays.”


15
     See Appendix IV, Reference Number 2012-20-109.
16
     Message from the Governance Board: CADE 2 Database Implementation (July 2, 2012).
                                                                                             Page 11
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



The following specific challenges and risk mitigation strategies for the CADE 2 system were
identified by the IRS as being underway:
      Establishing clarity around points of accountability, integration, and priorities for the
       various functions and key players to help meet the September 2012 deliverable, with
       expanded leadership from the Program Management Office to drive those
       accountabilities.
      Addressing resources, both personnel and hardware, that can be reallocated to the highest
       priorities for the September 2012 deployment.
      Instituting working norms to rationalize meeting attendance and reduce fragmentation of
       employee focus.
      Rapidly updating, communicating, and maintaining an accurate high-level schedule to
       facilitate decision making as changes in progress occur.
      Incorporating several broader lessons learned with CADE 2 system execution.

Achieving Program Efficiencies and Cost Savings
Given the current economic environment and the increased focus by the Administration,
Congress, and the American people on Federal Government accountability and efficient use of
resources, the American people must be able to trust that their Government is taking action to
stop wasteful practices and ensure that every tax dollar is spent wisely. This major management
challenge relates directly to IT capital planning and investment management controls for the
IRS’s systems and applications. As part of our annual assessment of the status of the IRS’s IT
Program, we considered the following information and reports that demonstrate the need for
improvements in program efficiencies.
The IRS FY 2012 budget includes $330.21 million to remain available until September 30, 2014,
for “necessary expenses of the Internal Revenue Service’s business systems modernization
program.” Such expenses include the capital asset acquisition of information technology
systems, including management and related contractual costs of said acquisitions (and related
IRS labor costs) and contractual costs associated with authorized operations. The Consolidated
Appropriations Act of 2012 specifically requires the IRS to submit a quarterly report to the
House and Senate Committees on Appropriations and the Comptroller General of the United
States detailing the cost and schedule performance for the CADE 2 system and the MeF system
IT investments. The report should include the purposes and life-cycle stages of the investments,
the reasons for any cost and schedule variances, the risks of such investments and the strategies
the IRS is using to mitigate such risks, and the expected developmental milestones to be
achieved and costs to be incurred in the next quarter.



                                                                                            Page 12
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



We reviewed, but did not verify, the quarterly status information provided by the IRS in
accordance with the previously discussed budget provisions. In its most recent quarterly
submission, the IRS included cost and schedule performance information for the CADE 2 and
MeF programs as well as five other programs, as specified by the Act. The five other IRS
programs currently being tracked quarterly under the 2012 Modernization Program budget
provisions are the:
        Enterprise Data Access Strategy/Integrated Production Model.
        E-Services.
        Information Reporting and Document Matching (IRDM).
        IRS.gov.
        Return Review Program.
In January 2012, the GAO reported17 on weaknesses associated with the implementation of sound
cost-estimating practices for IRS systems. In its report, the GAO concluded that the IRDM’s
2011 cost estimate, used to justify the program’s projected budgets of $115 million for FYs 2012
through 2016, generally does not meet best practices for reliability. The GAO review found that
the cost estimate minimally meets best practices for a well-documented estimate because the IRS
did not provide detailed support for staff resources and the cost estimate documentation justified
only about six out of the 86 requested Full-Time Equivalent staff for the IRDM, among other
things. If documentation does not provide source data or cannot explain the calculations
underlying the cost elements, the estimate’s credibility may suffer. Also, the IRDM program’s
earned value management data did not meet data reliability criteria in the areas GAO reviewed.
Specifically, the IRDM project schedule was not properly sequenced, meaning activities were
not properly linked in the order in which they were to be carried out. In addition, surveillance
was not conducted on the IRDM’s earned value management system, as required by the Office of
Management and Budget and the Department of the Treasury. Surveillance involves having
qualified staff review an earned value management system. The GAO concluded that because
the IRDM’s 2011 cost estimate is based on unreliable earned value management data, it does not
provide adequate support for the IRDM’s budget requests.

Development and Implementation of New Systems for the Patient
Protection and Affordable Care Act Provisions Present Major
Information Technology Management Challenges
The ACA contains an extensive array of tax law changes that will present a continuing source of
challenges for the IRS in the coming years. While the Department of Health and Human
Services will have the lead role in the policy provisions of the ACA, the IRS will administer the
17
   GAO, GAO-12-59, Cost Estimate for New Information Reporting System Needs to Be Made More Reliable
(Jan. 2012).
                                                                                                  Page 13
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



law’s numerous tax provisions. The IRS estimates that at least 42 provisions will either add to or
amend the tax code and at least eight will require the IRS to build new processes that do not exist
within the current tax administration system. In addition, the IRS must create new or revise
existing tax forms, instructions, and publications; revise internal operating procedures; and
reprogram major computer systems used for processing tax returns.
To address this emerging IT Program risk area, our annual IT assessment considered the broader
planning efforts underway in response to emerging legislative requirements for the IRS under the
provisions of the ACA. In June 2012, we reported18 that the tax-related provisions established by
the ACA affect millions of taxpayers and are key to meeting the primary legislative goal to
reform health care. The ACA contains many provisions that are to be implemented over the
course of several years, including some that required implementation during the year the
legislation was signed into law. Regarding the IRS’s planning for the ACA, this audit found that
appropriate plans had been developed to implement tax-related provisions of the ACA using
well-established methods for implementing tax legislation. The IRS’s plans addressed tax forms,
instructions, and most affected publications, as well as employee training, outreach and guidance
to taxpayers and preparers, computer programming, and data needed for ACA provisions.
The IRS projected its FY 2012 and 2013 ACA staffing needs to be 1,278 Full-Time Equivalents
and 859 Full-Time Equivalents, respectively. The IRS has not yet projected staffing needs
beyond FY 2013. A lack of documentation to support the staffing requirements needed to
implement the ACA precluded the TIGTA from providing an opinion on the adequacy of staffing
requests. The IRS did not analyze each provision to determine the amount of staffing necessary
to implement the provision. The TIGTA recommended that the IRS perform an analysis to
evaluate the resources necessary to efficiently implement the provisions and ensure that this
process is documented. The report stated that the IRS plans to complete an evaluation of the
major ACA provisions for which implementation has not been completed and evaluate the
resources needed for implementation, especially any with specialized skill needs, by the end of
FY 2012.
Also in FY 2012, the GAO reported19 that the IRS had implemented one of its four
recommendations from June 2011, to strengthen implementation efforts for the ACA by
scheduling the development of performance measures for the IRS ACA program. The GAO’s
report noted that the IRS had made varying degrees of progress on the other three
recommendations: (1) develop program goals and an integrated project plan, (2) develop a cost
estimate consistent with GAO’s published guidance, and (3) assure that the IRS’s risk
management plan identifies strategic-level risks and evaluates associated mitigation options.



18
  See Appendix IV, Reference Number 2012-43-064.
19
  GAO, GAO-12-690, Patient Protection and Affordable Care Act: IRS Managing Implementation Risks, but Its
Approach Could Be Refined (June 2012).
                                                                                                   Page 14
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



The GAO report concluded that the IRS’s revised risk management plan meets three of five
criteria for risk management plans, but the plan does not have specific guidance for evaluating
and selecting potential risk mitigation options, such as how to (1) identify who conducts and
reviews the analysis, (2) determine the availability of resources for a given strategy, and
(3) document for future users the rationale behind decisions made.
Further, the GAO reported that the IRS’s risk management plan was not used when the IRS’s
Office of Chief Counsel was responsible for implementing two provisions the GAO reviewed.
Although these provisions primarily required legal counsel and guidance, IRS officials said that
one of the provisions also affected IRS operations and could have risks that need to be managed.
Additionally, the GAO did not find evidence that a risk plan was used to track and mitigate risks
when coordinating with partner agencies, such as the Department of Health and Human Services.
We agree with the GAO’s conclusion that without a system for tracking shared risks, the IRS is
more likely to overlook risks or duplicate efforts.

Information Security Background
As our Nation’s tax collector and administrator of the Internal Revenue Code, the IRS processed
more than 234 million tax returns, of which 143 million came from individuals during FY 2011.
Information from these tax returns is converted into electronic format. The IRS maintains
178 computer system applications for use by IRS employees and relies extensively on
computerized systems to support its tax administration and core business processes. As such,
effective information systems security is essential to ensure that data are protected against
inadvertent or deliberate misuse, improper disclosure, or destruction and that computer
operations supporting tax administration are secured against disruption or compromise.
The IRS faces the daunting task of securing its computer systems against the growing and
diverse threats of cyberattacks. As such, the IRS must ensure that its computer systems are
effectively secured to protect sensitive financial and taxpayer data. According to the Office of
Management and Budget’s FY 2011 report to Congress on the implementation of the Federal
Information Security Management Act of 2002,20 the number of cyber incidents affecting Federal
Government agencies increased approximately 5 percent in FY 2011, when agencies reported
43,889 cyberattacks to the U.S. Computer Emergency Readiness Team, as presented in Figure 2.




20
  Pub. L. No. 107-347, Title III, 116 Stat. 2899, 2946-2961 (2002) (codified as amended in 44 U.S.C. §§ 3541–
3549).
                                                                                                        Page 15
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



              Figure 2: Cyber Incidents Reported to the U.S. Computer
             Emergency Readiness Team by Federal Agencies in FY 2011

                                                          Number of              Percentage of
                  Incident Category                       Incidents              Total Incidents

     Malicious Code                                         11,626                     26.5%
     Improper Usage                                          8,416                     19.2%
     Unauthorized Access                                     6,985                     15.9%
     Scans, Probes, and Attempted Accesses                   2,942                      6.7%
     Denial of Service                                           30                     0.1%
     Under Investigation/Other                              13,890                     31.6%
     Total                                                   43,889                   100.0%
    Source: The Office of Management and Budget’s FY 2011 Report to Congress on the Implementation of
    the Federal Information Security Management Act of 2002.

For FY 2012, we designated “Security for Taxpayer Data and Employees” as the top
management challenge for the IRS. This priority designation was given due to the increasing
threats, both cyber and physical, against the IRS; the need for the IRS to continue improving its
security posture; and the large volumes of data collected, processed, and maintained by the IRS.
The IRS is highly visible, with more than 100,000 employees and contractors working in more
than 700 facilities. Though animosity toward the IRS is nothing new, the February 2010 aircraft
attack on an IRS facility in Austin, Texas, was a stark reminder of the dangers facing IRS
employees and highlights a surge in hostility toward the Federal Government. Also, the ongoing
public debate regarding the ACA and continued concerns over the country’s recovering economy
could fuel threats against the Federal Government, including IRS employees, facilities, and
systems.

Progress Is Being Made to Improve Information Security and
Personnel Safety
The Office of Cybersecurity within the IRS IT organization is responsible for protecting taxpayer
information and the IRS’s electronic systems, services, and data from internal and external cyber
security-related threats by implementing world-class security practices in planning,
implementation, risk management, and operations. In addition to providing policy and guidance,
the Cybersecurity organization continues to place a high priority on efforts to improve its
information security program. For example, in the IRS’s Strategic Plan for FYs 2009 to 2013
one of the major trends affecting the IRS is the “explosion in electronic data, online interactions,
and related security risks.” Another example of the IRS’s commitment toward information
security is the IRS’s IT Security Program Plan, issued in September 2009. The IT Security
                                                                                                   Page 16
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



Program Plan is designed to enhance collaboration, provoke thought and comment, and guide all
security efforts across the IRS community. In addition, it serves as a roadmap and a basis for
benchmarking information security performance toward attaining security objectives. Finally,
senior leaders of the IRS will be able to use the IT Security Program Plan as input to their
strategic business planning process. This plan is being updated to reflect the current
environment and should be completed in September 2012.
During FY 2012, we conducted several audits and found that the IRS is moving toward a more
effective information security program.
        During our audit of the February 2010 aircraft attack at the IRS Austin facility, we found
         the IRS adequately prepared for and took the necessary actions to evacuate and protect
         IRS employees, secured taxpayer data and Federal Government property, and timely
         resumed business operations following the incident.21 The IRS provided extensive
         personnel services to assess and support affected employee needs, identified temporary
         office space for the affected employees, awarded several procurements to support the
         recovery effort in an expedited time period, and provided the furnishings and equipment
         needed to resume work within 18 calendar days of the incident.
        During an inspection conducted by the TIGTA Office of Inspections and Evaluation on
         the IRS’s contract security guard workforce, we found that the IRS generally has controls
         in place to ensure these security guards are suitable for employment in the 36 facilities
         for which it was responsible.22
        As mandated by the Federal Information Security Management Act, we report annually
         on the effectiveness of the IRS information security program. The Office of Management
         and Budget and the Department of Homeland Security identified 11 information security
         areas to be evaluated under the Federal Information Security Management Act review.
         Based on our work during the reporting period July 2010 to June 2011, we determined
         that the IRS information security program was generally compliant with Federal
         Information Security Management Act legislation, Office of Management and Budget
         requirements, and related information security standards.23 Specifically, the IRS met the
         level of performance for seven program areas: risk management, incident response and
         reporting, remote access management, continuous monitoring management, contingency
         planning, contractor systems, and security capital planning. While the IRS was generally
         compliant with the Federal Information Security Management Act legislation, the
         program was not fully effective as a result of conditions identified in the remaining four
         program areas: configuration management, security training, the process for managing
         weaknesses, and identity and access management. These results were an improvement

21
   See Appendix IV, Reference Number 2012-10-074.
22
   See Appendix IV, Reference Number 2012-IE-R002.
23
   See Appendix IV, Reference Number 2011-20-116.
                                                                                            Page 17
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



         from the previous year, when we found that the IRS met an effective level of
         performance in only three areas: certification and accreditation, incident response and
         reporting, and remote access management.
        During our audit of incident handling, we found that the Computer Security Incident
         Response Center was effectively performing its duties and responsibilities to detect,
         respond, and prevent computer security incidents.24 We also found that the Center has
         sufficient tools and training to accomplish its mission.
        During our audit of patch management, we found that the IRS had established policy and
         guidance for IRS organizations to carry out their respective responsibilities regarding
         patch management. This policy was consistent with Federal guidance from the National
         Institute of Standards and Technology, the Department of the Treasury, and industry best
         practices. In addition, the IRS took steps to automate the installation and monitoring of
         patching in a large segment of its Windows® environment.
        During our audit of two-factor authentication with Homeland Security Presidential
         Directive-12 Personal Identity Verification cards, we found that the IRS updated its
         implementation policies and developed a two-factor authentication system with the
         required components.25 In addition, the technical specifications for the acquired products
         met Federal standards.
Despite this progress, the IRS needs to continue placing emphasis and attention on its
information and physical security programs in order to ensure that policies, procedures, and
practices adequately address security control weaknesses throughout the organization.

Continued Management Attention Is Needed to Address Weaknesses
in Information and Physical Security

Computer security remains as a material weakness
The Federal Managers’ Financial Integrity Act of 198226 requires that each agency conduct
annual evaluations of its systems of internal accounting and administrative controls and submit
an annual statement on the status of the agency’s system of management controls. In the event
that an agency determines the existence of shortcomings in operations or systems that severely
impair or threaten the organization’s ability to accomplish its mission or to prepare timely and
accurate financial statements, the Department of the Treasury directs the agency to declare a
material weakness on that particular area.


24
   See Appendix IV, Reference Number 2012-20-019.
25
   See Appendix IV, Reference Number 2012-20-112.
26
   31 U.S.C. §§ 1105, 1113, 3512.
                                                                                           Page 18
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



In Calendar Year 1997, the IRS designated computer security as a material weakness. The
computer security material weakness compromises the accuracy and availability of the IRS
financial information and places sensitive information regarding IRS operations and taxpayers at
risk. The IRS further categorized the computer security material weakness into nine
components: (1) network access controls; (2) key computer applications and system access
controls; (3) software configuration; (4) functional business, operating, and program units’
security roles and responsibilities; (5) segregation of duties between system and security
administrators; (6) contingency planning and disaster recovery; (7) monitoring of key networks
and systems; (8) security training; and (9) certification and accreditation.
According to the IRS, it has closed or completed all planned corrective actions for eight of the
nine components, as shown in Figure 3.
      Figure 3: Status of Computer Security Material Weakness Components
                                                                                 Date Closed
            Material Weakness Area                          Status              or to Be Closed

   Area 1-1: Network Access Controls              All actions completed.    July 2010

   Area 1-2: Application/System Access
                                                  All actions completed.    December 2011
             Controls

   Area 1-3: System Software Configuration        All actions completed.    December 2011

   Area 1-4: Security Roles and
                                                  All actions completed.    March 2009
             Responsibilities

   Area 1-5: Security and System
                                                  Closed.                   September 2004
             Administration Segregation

   Area 1-6: IT Contingency Planning              All actions completed.    December 2011

   Area 1-7: Audit Trails                         Open.                     January 2014

   Area 1-8: Security Training                    Closed.                   June 2008

   Area 1-9: Certification and Accreditation      Closed.                   December 2008
 Source: The IRS’s Computer Security Material Weakness Plan, updated as of December 7, 2011.

Since our last annual assessment report where we cited that the IRS had closed or completed
corrective actions for five of the nine areas, the IRS reported that it had completed all corrective
actions for three additional areas in December 2011. As early as June 2000, we have performed
independent validation assessments over individual areas of the computer security material
weakness when requested by the IRS. These audits were specifically conducted to evaluate the
effectiveness of actions completed and to provide an opinion on whether the IRS should close or
downgrade any areas of the computer security material weakness. The most recent IRS request

                                                                                                  Page 19
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



came for the IT Contingency Planning area. Accordingly, we completed two audits to assess the
effectiveness and completion of the IRS’s corrective actions on the IT Contingency Planning
area.27 As a result, we provided verbal concurrence to the IRS that it could either downgrade or
close this area, allowing the IRS to make the final determination.
We have not received any other requests to assess the effectiveness of completed corrective
actions from the IRS on the Network Access Controls, Application/System Access Controls, or
System Software Configurations areas. However, our audits conducted during FY 2012
continued to identify weaknesses related to the computer security material weakness areas. The
IRS agreed with the following findings and provided adequate corrective actions to address our
findings.
        During our audit of the CADE 2 system database implementation, we found that the IRS
         did not correct security weaknesses identified through repeated database security
         vulnerability scans.28 Specifically, these security weaknesses included privileged users
         with unauthorized access to tables, packages, and files, which could result in loss of
         taxpayer data. In addition, configuration weaknesses existed relating to default ports and
         enabled demonstration tables, which could be exploited because default tables use default
         account identification names, passwords, and ports.
        During our audit of patch management,29 we found that the IRS had not yet discovered all
         the IT assets residing on its network and, therefore, cannot ensure all assets are
         appropriately patched.30 We also found that, on several internal management reports, the
         IRS continues to report missing patches and patches not being timely applied. For
         example, in March 2012, the IRS’s overall patch compliance rate for critical patches
         averaged 88 percent for all reporting entities. The 12 percent noncompliance rate
         translated to 23 critical patches not applied to IRS Windows servers, which resulted in
         7,329 vulnerabilities remaining on these servers. These vulnerabilities could potentially
         be exploited to gain unauthorized access to information, disrupt operations, or launch
         attacks against other systems.
        Also during our audit of patch management, we found that the IRS network contained
         outdated operating systems, which cannot be patched to correct known security
         vulnerabilities. For example, we identified 65 obsolete Windows31 servers on the IRS
         network. The IRS did not know why these servers were still operational and connected to


27
   See Appendix IV, Reference Number 2012-20-041 and TIGTA, Ref. No. 2011-20-060, Corrective Actions to
Address the Disaster Recovery Material Weakness Are Being Completed (June 2011).
28
   See Appendix IV, Reference Number 2012-20-109.
29
   Patch management is a component of the Systems Software Configuration area.
30
   See Appendix IV, Reference Number 2012-20-112.
31
   These 65 servers consisted of Windows NT servers (not supported by the Microsoft Corporation since
December 31, 2004) and Windows 2000 servers (not supported by the Microsoft Corporation since July 13, 2010).
                                                                                                      Page 20
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



         its network. Outdated operating systems are no longer supported by the vendor, which
         means new vulnerabilities cannot be corrected and can be exploited.
        During our audit of IRS audit trails to detect unauthorized access by IRS employees,32 we
         found that the IRS needs to ensure audit trails effectively support unauthorized access
         investigations in order for the IRS to make further progress in addressing and resolving
         the audit trail material weakness.33 As of March 2012, the audit trail repository system
         where audit trails are maintained for monitoring efforts contained audit trails for only
         20 systems. The IRS estimated that 339 systems or subsystems could potentially be
         required to be monitored.
In addition, from April 2011 to March 2012, the GAO assessed whether controls over key
financial and tax processing systems were effective in ensuring the confidentiality, integrity, and
availability of financial and sensitive taxpayer information in conjunction with its audits of the
IRS’s FYs 2010 and 2011 financial statements. The GAO found that the IRS implemented
numerous controls and procedures intended to protect key financial and tax-processing systems;
however, control weaknesses in these systems continue to jeopardize the security of financial and
sensitive taxpayer information processed by the IRS’s systems. Specifically, the IRS continues
to face challenges in controlling access to its information resources. For example, it had not
always (1) implemented controls for identifying and authenticating users, such as requiring users
to set new passwords after a prescribed time period; (2) appropriately restricted access to certain
servers; (3) ensured that sensitive data were encrypted when transmitted; (4) audited and
monitored systems to ensure that unauthorized activities would be detected; or (5) ensured
management validation of access to restricted areas. In addition, unpatched and outdated
software exposed the IRS to known vulnerabilities, and the agency had not enforced backup
procedures for a key system.
Considered collectively, these deficiencies, both new and unresolved from previous GAO audits,
along with a lack of fully effective compensating and mitigating controls, impair the IRS’s
ability to ensure that its financial and taxpayer information is secure from internal threats. This
reduces the IRS’s assurance that its financial statements and other financial information are fairly
presented or reliable and that sensitive IRS and taxpayer information is being sufficiently
safeguarded from unauthorized disclosure or modification. These deficiencies are the basis of
the GAO’s determination that the IRS had a material weakness in internal controls over financial
reporting related to information security in FY 2011.




32
   Internal Revenue Code Section 6103 and the Taxpayer Browsing Protection Act of 1997 (26 U.S.C. §§ 7213,
7213A, and 7431) require the IRS to detect and monitor unauthorized access and disclosure of taxpayer data. The
willful unauthorized access or inspection of taxpayer records is a criminal offense.
33
   See Appendix IV, Reference Number 2012-20-099.
                                                                                                        Page 21
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



Other security weaknesses adversely affect the IRS’s ability to achieve effective
information and physical security programs
In addition, we identified security weakness areas from across several audits during our reporting
period.
          Physical security.
            Because of the Austin aircraft attack, the IRS contracted for the completion of
             in-depth physical security reviews of IRS facilities across the country to determine
             how to improve its current security posture. During our audit of this contract, we
             found that IRS employees did not properly administer the contract in compliance with
             acquisition regulations and directed the contractor to perform services that were lesser
             in scope than required by the contract.34 As a result, the contractor did not perform an
             in-depth, independent assessment regarding the security posture of the IRS’s
             facilities. The noncompliance of contract deliverables could potentially impact the
             IRS’s ability to make informed decisions regarding its physical security and the need
             for additional security enhancements.
          Remediation of security weaknesses.
            The security weaknesses previously discussed on unauthorized access to privileged
             user accounts from our review of the CADE 2 system database implementation were
             the result of an ineffective process for remediating identified security weaknesses
             during systems development. Database vulnerability scans in March 2012 identified
             67 weaknesses, of which 49 were deemed critical and 18 were deemed major. A
             comparison to a similar scan performed in December 2011 showed that the
             weaknesses were repeat findings.
            The security weakness previously discussed on missing critical patches from our
             review of patch management were partly caused by insufficient monitoring processes
             to ensure vulnerabilities resulting from unpatched systems were successfully and
             timely remediated. Monitoring servers and workstations were performed manually
             with self-reported results or conducted by an automated solution that had not been
             properly implemented or was not working as intended.
          Lack of oversight or functional coordination on security-related issues.
            During an inspection conducted by the TIGTA Office of Inspections and Evaluation
             on the IRS’s contract security guard workforce, we found that the IRS had
             erroneously allowed 17 contract security guards to continue to work at an IRS facility
             after their access authorization had expired.


34
     See Appendix IV, Reference Number 2012-10-075.
                                                                                             Page 22
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



            During our audit of the CADE 2 system database implementation, we found that the
             IRS hired two contractors to conduct source code reviews of the CADE 2 system
             database; the contractors identified one high-risk and several moderate- and low-risk
             weaknesses in October 2011. These weaknesses included Structured Query
             Language injection, insufficient password management, incorrect logical operators,
             and insufficient input validation. The CADE 2 Governance Board chose not to
             correct these weaknesses, accepting the risks because the code was intended to be
             used only once. However, we found the unsecure code was used multiple times in
             testing and to initialize the production database in March 2012, and it will be used to
             initialize the database in the summer of 2012. These weaknesses could cause a loss
             of data and performance problems.
            During our audit of incident handling, we found that 34 percent of servers within the
             IRS network did not have host-based intrusion detection software installed.35
             Host-based intrusion detection software allows the Computer Security Incident
             Response Center to monitor and analyze network traffic for the purpose of detecting
             suspicious activities. A lack of coordination between the Center and systems
             administrators, who are responsible for installing the software, contributed to the
             significant number of servers without this detection capability.
            During our review of two-factor authentication with Homeland Security Presidential
             Directive-12 Personal Identity Verification cards (referred to as SmartID cards by
             the IRS), we found that the project encountered significant delays, putting the IRS
             22 months behind its original planned completion date for implementing the new
             two-factor authentication system.36 We also believe this project will be further
             delayed due to inadequate progress being made on mandating the use of SmartID
             cards, implementing two-factor authentication for administrators, enabling the use of
             SmartID cards for authentication to applications, and configuring remote access
             capabilities to use SmartID cards. We also found that required testing, including
             security testing, was not conducted and that key enterprise lifecycle artifacts and
             processes were not completed. Many of these weaknesses were attributed to a lack of
             a project manager with the requisite training and experience to manage and oversee
             the project.
Until the IRS addresses each computer security material weakness component with the necessary
resources and funding and minimizes the existences of new security weaknesses, the IRS will
continue to put the confidentiality, integrity, and availability of financial and taxpayer
information maintained and processed on its computer systems and employee safety at risk.



35
     See Appendix IV, Reference Number 2012-20-019.
36
     See Appendix IV, Reference Number 2012-20-115.
                                                                                             Page 23
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



Information Technology Operations Background
The IRS IT organization plays an important role in helping the IRS meet its tax administration
responsibilities each year. It is not only responsible for the efficient and secure processing and
transfer of taxpayer data, but it also supports the needs of 100,000 employees who rely on
equipment and system availability. The IRS needs to ensure that it leverages viable
technological advances as it improves its overall operational environment.
According to the Draft IRS IT Business Plan FYs 2011–2013, the IRS IT organization’s vision is
to become a world-class provider of IT services by focusing on people, processes, and
technology. Because these components are interlinked, it is imperative to create an alignment
between each of these three areas. Focusing on developing employees is the most important
activity. Then, focusing on process functions allows the IT organization to focus on activities
that add customer value while increasing operational efficiency and decreasing cost. Finally, the
identification and implementation of appropriate technology solutions provides a path to
organizational success.

Information Technology Operational Efficiency Continues to Improve,
but Additional Improvements Are Needed
During FY 2012, we conducted several audits of IT operations and found opportunities for the
IRS to improve operational efficiency and effectiveness.
During our audit to evaluate the effectiveness and efficiency of the IRS’s efforts to consolidate
and virtualize its servers, we found that by the end of FY 2011, the Server Consolidation and
Virtualization Project team had succeeded in establishing a virtual Wintel server environment
with approximately 1,800 virtual servers running on 234 physical host servers at 13 data center
locations (nine campuses, three computing centers, and the New Carrollton Federal Building).
The goals of the project were successfully achieved on time and within budget.37 Reducing the
number of physical servers has resulted in significant cost savings, associated with lower
electrical output for fewer servers, and hardware savings over a one-for-one server replacement.
As of the end of FY 2011, the IRS estimated that server virtualization had saved approximately
$10.2 million in equipment costs. The IRS also expects to save approximately $1.3 million
annually in decreased electrical costs beginning in FY 2013. The virtualized servers help lower
operational costs through standardization, making it easier to load or remove a server from the
operating environment. Other benefits of virtualization technology include decreased server
hardware downtime and automatic load balancing.38


37
  See Appendix IV, Reference Number 2012-20-029.
38
  Automatic load balancing refers to the even distribution of processing across available resources such as servers in
a network.
                                                                                                            Page 24
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



However, the Server Consolidation and Virtualization Project team did not include Wintel
servers in IRS field offices outside of the 13 targeted locations. IRS management estimates
approximately 650 of 1,000 Wintel servers in its field locations can be decommissioned and
added to the virtual server environment. By virtualizing the remote servers, IRS management
estimates it could realize an additional savings of approximately $7.73 million ($7.26 million in
equipment savings and $0.47 million in electrical savings over five years).
During our audit to evaluate the effectiveness and efficiency of the new business processes, the
implementation of personnel placement, and mitigations associated with the reorganization of the
EUES organization, we found that EUES organization management should introduce measures
that will help assess the cost effectiveness of the Customer Service Support Centers.39 Also,
EUES organization management should mandate use of the password management tool. In
FY 2010, the Service Desk performed 122,431 password resets, and in FY 2011, it performed
130,806 password resets, with 12,000 of these occurring during a one-month period. These high
password reset rates occurred because management had not mandated the use of the password
management tool. Mandating the use of this tool will allow the IRS to achieve the full benefits
from the tool while freeing up Service Desk employees to focus on resolving other complex
issues and increasing its first contact resolution rate.

The Information Technology Organization Is Effectively Working
Human Capital Issues, but Additional Improvements Are Needed
The Human Capital Assessment and Accountability Framework identify five human capital
systems that together provide a consistent, comprehensive representation of human capital
management for the Federal Government. The Human Capital Assessment and Accountability
Framework links human capital management to the merit system principles and other civil
service laws, rules, and regulations. The establishment of the Human Capital Assessment and
Accountability Framework fulfills the Office of Personnel Management Chief Human Capital
Officers Act of 200240 to design systems and set standards, including appropriate metrics, for
assessing the management of human capital by Federal agencies.
Workforce planning is a systematic process for identifying the human resources required to meet
an agency’s mission and goals and developing strategies to meet those requirements. According
to the Office of Personnel Management,41 an effective workforce plan includes identifying the
human capital required to meet organizational goals, conducting analysis to identify competency
gaps, developing strategies to address human capital needs and close competency gaps, and
ensuring the organization is appropriately structured. An agency should approach workforce

39
   See Appendix IV, Reference Number 2012-20-086.
40
   5 U.S.C 1103 (c) and implemented under subpart b of 5 CFR part 250.
41
   The Office of Personnel Management, The Office of Personnel Management Human Capital Assessment and
Accountability Framework Resource Center – Workforce Planning (Strategic Alignment System) (Sept. 2005).
                                                                                                    Page 25
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



planning strategically and in an explicit, documented manner. The workforce plan should link
directly to the agency’s strategic and annual performance plans and be used to make decisions
about structuring and deploying the workforce. One key element of workforce planning requires
a workload analysis to determine the size of the workforce needed to meet organizational goals
and to identify gaps between current and future workforce needs before the new budget
execution cycle.
The IRS IT organization is striving to achieve the objective to “make the IRS the best place to
work in government,” but managing the drivers of change becomes a workforce planning
challenge due to the following needed factors:
          Ability to compete as an employer in the external marketplace, as well as improve upon
           hiring goals and processes.
          Continued improvement in tracking and forecasting workforce needs and changes.
          Continued improvement of employee engagement and identifying and developing its
           future leaders of tomorrow.
          Ability to measure and respond to the results of its human resource plans and processes.42
The Internal Revenue Manual provides guidance and standards for establishing workforce
planning. Similar to the Office of Personnel Management model, Figure 5 shows four phases of
the IRS Strategic Workforce Planning model.




42
     See Appendix IV, Reference Number 2012-20-107.
                                                                                             Page 26
                              Annual Assessment of the Internal Revenue Service
                                       Information Technology Program



                        Figure 5: IRS Strategic Workforce Planning Model
                               for Human Resources Management




              Source: Internal Revenue Manual Exhibit 6.251.1-3, dated July 2003.

During our audit to evaluate the effectiveness and efficiency of the new business processes, the
implementation of personnel placement, and mitigations associated with the reorganization of the
EUES organization, we found that impacted employees were provided mitigation strategies
during placement into the reorganized EUES organization. Some of the mitigations or
placements offered included realignment, voluntary retirement/separation for those deemed
eligible, preference placement, voluntary or involuntary reassignment, and competitive
placement. The EUES organization established a baseline of 1,292 employees, of which
approximately 1,100 were bargaining unit employees.43 As of December 2011, the EUES
organization placed 1,211 of its employees into the new structure.
In addition, placed employees received training to handle new roles and responsibilities. The
EUES organization management developed a comprehensive training curriculum for each
position within the various EUES functions. The curriculum detailed the training classes needed
to successfully perform in a given job. An analysis of training records obtained from EUES
organization management showed Service Desk and deskside employees received training within

43
     The baseline was established in October 2009.
                                                                                        Page 27
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



the parameters defined by the Memorandum of Understanding and National Treasury Employees
Union agreements to prepare them for their jobs.
We also interviewed six Service Desk employees regarding special training they might have
received to prepare them for providing the first-line of customer service. We were informed that
in addition to completing a two-week training course about the Service Desk, each was assigned
an on-the-job training instructor to provide further assistance.
During our audit to evaluate the IRS IT organization’s workforce planning efforts to ensure that
it had the human capital needed to deliver IT services and solutions that drive effective tax
administration, we found that the IT organization had conducted an extensive study to determine
if any human resource contention risks existed related to its staffing demand forecasts and
developed mitigation strategies for areas of risk as appropriate. Although the IRS IT
organization had a process for identifying its resource needs and gaps for completing its priority
work, the process primarily relied on management’s knowledge and judgment about each
individual’s skills and did not consider resource needs for other mission-related work. While
there are some automated personnel systems that provide IRS IT organization management with
information about its employees, e.g., certifications obtained and educational holdings, there is
not a system within the IRS IT organization that provides information about skills and
competencies associated with the various occupations. Without a competency database, IRS IT
organization management cannot efficiently and effectively manage the skills of the workforce.




                                                                                          Page 28
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The IRS Restructuring and Reform Act of 1998,1 in part, states that the TIGTA shall annually
perform an evaluation of the adequacy and security of the technology of the IRS. To meet this
objective, the audit considered results from internal and external reports from August 1, 2011,
through September 30, 2012, focusing on key programs and initiatives led by the CTO. Our
subobjectives were to:
I.      Compile IRS IT Program-related audit findings and recommendations from TIGTA
        reports and identify high-risk IT management issues affecting IRS efforts to achieve its
        program goals and objectives.
II.     Consider pertinent status information from other internal and external IRS oversight
        organizations, including published reports.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not evaluate internal
controls as part of this review because doing so was not necessary to satisfy our review
objective.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 29
                      Annual Assessment of the Internal Revenue Service
                               Information Technology Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwendolyn McGowan, Director
Kent Sagara, Director
Danny Verneuille, Director
Carol Taylor, Audit Manager
Ryan Perry, Lead Auditor
Louis Lee, Senior Auditor
Mike Mohrman, Information Technology Specialist




                                                                                     Page 30
                     Annual Assessment of the Internal Revenue Service
                              Information Technology Program



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Deputy Chief Information Officer for Operations OS:CTO
Deputy Chief Information Officer for Strategy/Information Technology OS:CTO
Deputy Commissioner, Services and Operations SE:W
Associate Chief Information Officer, Affordable Care Act (PMO) OS:CTO:ACA
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Networks OS:CTO:UNS
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Information Technology – Program Management Office
OS:CTO:MP
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                   Page 31
                    Annual Assessment of the Internal Revenue Service
                             Information Technology Program



                                                                        Appendix IV

         List of Treasury Inspector General for
         Tax Administration Reports Reviewed

        Report
       Reference
       or (Audit)                                                          Report
No.     Number                        Report Title                     Issuance Date
1     2011-20-116     Treasury Inspector General for Tax             September 20, 2011
                      Administration – Federal Information
                      Security Management Act Report for Fiscal
                      Year 2011
2     2011-10-098     The Internal Revenue Service Adequately        September 21, 2011
                      Prepared for and Responded to the Austin
                      Incident
3     2011-20-111     Continued Centralization of the Windows        September 23, 2011
                      Environment Would Improve Administration
                      and Security Efficiencies
4     2012-IE-R002 Internal Revenue Service Contract Security         January 10, 2012
                   Guard Workforce Inspection
5     2012-20-019     The Computer Security Incident Response         March 12, 2012
                      Center Is Effectively Performing Most of Its
                      Responsibilities, but Further Improvements
                      Are Needed
6     2012-20-029     Virtual Server Technology Has Been              March 30, 2012
                      Successfully Implemented, but Additional
                      Actions Are Needed to Further Reduce the
                      Number of Servers and Increase Savings
7     2012-20-041     Disaster Recovery Testing Is Being                May 3, 2012
                      Adequately Performed, but Problem
                      Reporting and Tracking Can Be Improved



                                                                                 Page 32
                   Annual Assessment of the Internal Revenue Service
                            Information Technology Program




       Report
      Reference
      or (Audit)                                                           Report
No.    Number                        Report Title                      Issuance Date

8     2012-20-051    Customer Account Data Engine 2                    May 16, 2012
                     Performance and Capacity Is Sufficient, but
                     Actions Are Needed to Improve Testing
9     2012-43-064    Affordable Care Act: Planning Efforts for the     June 14, 2012
                     Tax Provisions of the Patient Protection and
                     Affordable Care Act Appear Adequate;
                     However, the Resource Estimation Process
                     Needs Improvement
10    2012-10-074    Accounting for the Austin Incident                July 10, 2012


11    2012-10-075    An Independent Risk Assessment of Facility        July 25, 2012
                     Physical Security Was Not Performed in
                     Compliance With Contract Requirements
12    2012-20-086    The End-User Equipment and Services              August 14, 2012
                     Organization Successfully Planned Its
                     Reorganization; However, Program
                     Measures and Efficiencies Can Be Improved  
13    2012-40-116    While Use of the Modernized e-File System       September 19, 2012
                     for Individual Tax Returns Has Increased, the
                     Legacy e-File System Is Still Needed As a
                     Backup
14    2012-20-099    Audit Trails Did Not Comply With Standards      September 20, 2012
                     or Fully Support Investigations of
                     Unauthorized Disclosure of Taxpayer Data
15    2012-20-107    The Information Technology Organization         September 21, 2012
                     Needs to Implement a Competency Database
                     to Efficiently Manage Its Workforce
16    2012-20-112    An Enterprise Approach Is Needed to Address     September 25, 2012
                     the Security Risk of Unpatched Computers


                                                                                Page 33
                   Annual Assessment of the Internal Revenue Service
                            Information Technology Program




       Report
      Reference
      or (Audit)                                                           Report
No.    Number                        Report Title                      Issuance Date

17    2012-20-122    Customer Account Data Engine 2 (CADE 2):        September 28, 2012
                     System Requirements and Testing Processes
                     Need Improvements
18    2012-20-121    Despite Steps Taken to Increase Electronic      September 27, 2012
                     Returns, Unresolved Modernized e-File
                     System Risks Will Delay the Retirement of the
                     Legacy e-File System and Implementation of
                     Business Forms
19    2012-20-109    The Customer Account Data Engine 2              September 27, 2012
                     Database Was Initialized; However,
                     Database and Security Risks Remain, and
                     Initial Timeframes to Provide Data to Three
                     Downstream Systems May Not Be Met

20    2012-20-115    Using SmartID Cards to Access Computer          September 28, 2012
                     Systems Is Taking Longer Than Expected




                                                                                Page 34
                Annual Assessment of the Internal Revenue Service
                         Information Technology Program



                                                                                 Appendix V

        Number of Internal Revenue Service
        Information Technology Employees

                                                                Number of
                                                                Employees
                IRS Information Technology                     June 30, 2012
        Applications Development                                   2,321
        Enterprise Services                                          280
        Strategy and Planning                                        322
        User and Network Services                                  1,692
        Enterprise Operations                                      1,717
        Cybersecurity                                                382
        Affordable Care Act Program Management Office                288
        Management Services                                          146
        Customer Account Data Engine Program                          70
        Management Office
        Chief Technology Officer Office                                4
        Deputy Chief Information Officer for Strategy and              4
        Modernization
        Deputy Chief Information Officer for Operations                2
        TOTAL                                                      7,228
Source: Treasury Integrated Management Information System as of June 30, 2012.




                                                                                      Page 35
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



                                                                               Appendix VI

                             Glossary of Terms

           Term                                         Definition
Audit Trails                A record of events occurring on a computer from system and
                            application processes as well as user activity.
Best Practice               A technique or methodology that, through experience and
                            research, has proven to lead to a desired result.
Business Master File        The database on which the IRS stores business taxpayers’ data.
Business Systems            The Business Systems Modernization Program, which began in
Modernization               1999, is a complex effort to modernize the IRS’s technology and
                            related business processes.
Campus                      The data processing arm of the IRS. The campuses process paper
                            and electronic submissions, correct errors, and forward data to
                            the Computer Centers for analysis and posting to taxpayer
                            accounts.
Certification and           A process to provide assurance that adequate security controls are
Accreditation               in place over computer systems.
Competency                  An observable, measurable skill set of skills, knowledge,
                            abilities, behaviors, and other characteristics an individual needs
                            to successfully perform work roles or occupational functions.
                            Competencies are typically required at different levels of
                            proficiency depending on the specific work role or occupational
                            function. Competencies can help ensure individual and team
                            performance aligns with the organization’s mission and strategic
                            direction.
Computing Centers           Support tax processing and information management through a
                            data processing and telecommunications infrastructure.
Configuration Management    A collection of activities focused on establishing and maintaining
                            the integrity of products and systems, through control of the
                            processes for initializing, changing, and monitoring the
                            configurations of those products and systems.


                                                                                        Page 36
                    Annual Assessment of the Internal Revenue Service
                             Information Technology Program




          Term                                        Definition
Continuous Monitoring     Maintaining ongoing awareness of information security,
                          vulnerabilities, and threats to support organizational risk
                          management decisions.
Customer Account Data     Creates a modernized processing and data-centric infrastructure
Engine 2 (CADE 2)         that will enable the IRS to improve the accuracy and speed of
                          individual taxpayer account processing, enhance the customer
                          experience through improved access to account information, and
                          increase the effectiveness and efficiency of agency operations.
Default                   Controls or settings of computer hardware or software as preset
                          by its manufacturer. Some types of default settings may be
                          altered or customized by the user.
Denial of Service         The prevention of authorized access to resources or the delaying
                          of time-critical operations.
Earned Value Management   A structured process used to manage major investments, which
                          integrates the scope of work with schedule and cost elements for
                          better planning and control.
Earned Value Management   Quarterly data that shall be provided to the Department of the
Data                      Treasury. This data must be entered into the Department of the
                          Treasury portfolio management tool and obtained from the
                          Bureau’s Earned Value Management System to fulfill
                          Department of the Treasury and Office of Management and
                          Budget reporting requirements.
Earned Value Management   A system that the Office of Management and Budget requires
System                    Federal agencies use to manage all major IT investments with
                          development/modernization/enhancements activities.
Federal Information       Legislation that requires the Inspector General to perform an
Security Management Act   annual independent evaluation of each Federal agency’s
of 2002                   information security policies, procedures, and practices, as well
                          as evaluate its compliance with this law.
Filing Season             The period from January through mid-April when most
                          individual income tax returns are filed.
Fiscal Year               A 12-consecutive-month period ending on the last day of any
                          month except December. The Federal Government’s fiscal year
                          begins on October 1 and ends on September 30.

                                                                                        Page 37
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program




           Term                                           Definition
Homeland Security             This directive established a new standard for issuing and
Presidential Directive-12     maintaining identification badges (also known as Personal
(HSPD) Personal Identity      Identity Verification cards) for Federal employees and
Verification Card             contractors entering Government facilities and accessing
                              computer systems.
Human Capital                 Defined by the National Academy of Public Administration as
                              the “identification of competencies and skills needed to realize an
                              organization’s operating goals.” According to the GAO,
                              acquiring and developing staffs whose size and skills meet
                              agency needs is one of the most pervasive challenges facing the
                              Federal Government.
Individual Master File        The IRS database on which the IRS stores individual taxpayers’
                              data.
Information Reporting and     The IRS established this program to create the infrastructure
Document Matching             needed to implement two pieces of tax-gap legislation related to
                              third-party reporting.
Integrated Data Retrieval     Manages data that was extracted from the Corporate Account
System                        Data Stores (Business Master File, Employee Plans Master File,
                              Individual Master File, and CADE) allowing IRS employees to
                              take specific actions on taxpayer account issues, track status, and
                              post transaction updates to the Master Files. It provides for
                              systemic review of case status and notice issuance based on case
                              criteria, alleviating staffing needs and providing consistency in
                              case control.
JAVA                          A general purpose, concurrent, class-based, object-oriented
                              language that is specifically designed to have as few
                              implementation dependencies as possible.
Malicious Code                The term used to describe any code in any part of a software
                              system or script that is intended to cause undesired effects,
                              security breaches, or damage to a system. Malicious code
                              describes a broad category of system security terms that includes
                              attack scripts, viruses, worms, Trojan horses, backdoors, and
                              malicious active content.




                                                                                          Page 38
                        Annual Assessment of the Internal Revenue Service
                                 Information Technology Program




            Term                                          Definition
Material Weakness            Office of Management and Budget Circular A-123,
                             Management’s Responsibility for Internal Control, dated
                             December 2004, defines a material weakness as any condition an
                             agency head determines to be significant enough to be reported
                             outside the agency.
Milestone                    The “go/no-go” decision point in a project; it is sometimes
                             associated with funding approval to proceed.
Mitigation Strategies        Strategies used to avoid or lessen the number or severity of
                             involuntary personnel actions that result from an organization
                             change, e.g., Voluntary Early Retirement Authority, Voluntary
                             Separation Incentive Payment, Job Swaps, Grade and Pay
                             Retention.
Modernized e-File (MeF)      The MeF project develops a modernized, web-based platform for
                             filing approximately 330 IRS forms electronically, beginning
                             with the Form 1120, U.S. Corporation Income Tax Return, Form
                             1120S, U.S. Income Tax Return for an S Corporation, and Form
                             990, Return of Organization Exempt From Income Tax. The
                             project serves to streamline filing processes and reduce the costs
                             associated with a paper-based process.
Patch Management             The process by which an organization installs patches, which are
                             fixes or updates to computer programs, operating systems, or
                             applications.
Release                      A specific edition of software.
Resource Contention          Occurs when multiple projects have the same skill-set needs, but
                             there are not enough resources available to fill the total skill-set
                             needs.
Structured Query Language    A type of attack where a malicious entity sends specially crafted
(SQL) Injection              input to the content generator. The input includes a specific SQL
                             command string that, when submitted unfiltered to a SQL
                             database server, potentially returns to the attacker any or all of
                             the information stored in the database. SQL injections and other
                             attacks are used to execute commands or gain unauthorized
                             access to the Web server or a backend database server.
Taxpayer Information File    A file containing entity and tax data processed at a given service
                             center for all Taxpayer Identification Numbers.

                                                                                          Page 39
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program




           Term                                         Definition
Virtual Server               A virtual server is not a physical machine. It co-resides and
                             shares computer resources with other virtual servers on a physical
                             computer or host.
Voluntary Early Retirement   An opportunity to retire in advance of meeting the age and/or
Authority                    service requirements normally needed for retirement.
Voluntary Separation         Commonly referred to as buyouts. Lump-sum payments of up to
Incentive Payment            $25,000 paid to specifically impacted employees to enhance
                             resignation or retirement. Buyouts are targeted at employees in
                             specific grades, series, and locations and are used to help avoid
                             Reductions in Force and minimize involuntary separations.
                             Agencies, including the IRS, must obtain authority to offer
                             buyouts to their employees from the Office of Personnel
                             Management.
Wintel Server                A server running a Microsoft Windows operating system with an
                             Intel microprocessor.
Workforce Planning           A process whereby a strategic plan is developed which sets the
                             organization’s objectives for competency development and
                             workforce activities. These objectives are supported by
                             workforce allocation with each organizational unit to satisfy both
                             unit needs and strategic objectives. The workforce planning
                             process fundamentally involves identifying the gap between the
                             existing workforce supply and the future workforce competency
                             needs and position requirements based on projected workload
                             and strategic objectives. The plan may also enumerate or
                             recommend closing gap strategies and or options for the Senior
                             Leadership Team.




                                                                                        Page 40
